<html>
<title> - CONDEMNING THE GOVERNMENT OF IRAN FOR ITS STATE-SPONSORED PERSECUTION OF ITS BAHA'I MINORITY AND ITS CONTINUED VIOLATION OF THE INTERNATIONAL COVENANTS ON HUMAN RIGHTS; AND CALLING ON THE GOVERNMENT OF IRAN TO FULFILL THEIR PROMISES OF ASSISTANCE IN THIS CASE OF ROBERT LEVINSON, ONE OF THE LONGEST HELD UNITED STATES CIVILIANS IN OUR NATION'S HISTORY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 CONDEMNING THE GOVERNMENT OF IRAN FOR ITS STATE-SPONSORED PERSECUTION 
OF ITS BAHA'I MINORITY AND ITS CONTINUED VIOLATION OF THE INTERNATIONAL 
  COVENANTS ON HUMAN RIGHTS; AND CALLING ON THE GOVERNMENT OF IRAN TO 
 FULFILL THEIR PROMISES OF ASSISTANCE IN THIS CASE OF ROBERT LEVINSON, 
ONE OF THE LONGEST HELD UNITED STATES CIVILIANS IN OUR NATION'S HISTORY

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                      H. Res. 109 and H. Res. 435

                               __________

                             JUNE 19, 2014

                               __________

                           Serial No. 113-174

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-386PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts
SEAN DUFFY, Wisconsin                GRACE MENG, New York
                                     LOIS FRANKEL, Florida













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 109, Condemning the Government of Iran for its state-
  sponsored persecution of its Baha'i minority and its continued 
  violation of the International Covenants on Human Rights.......     2
H. Res. 435, Calling on the government of Iran to fulfill their 
  promises of assistance in this case of Robert Levinson, one of 
  the longest held United States civilians in our Nation's 
  history........................................................    11
  Amendment in the nature of a substitute to H. Res. 435 offered 
    by the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida, and chairman, 
    Subcommittee on the Middle East and North Africa.............    15

                                APPENDIX

Markup notice....................................................    26
Markup minutes...................................................    27
Markup summary...................................................    28
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    29
 
 CONDEMNING THE GOVERNMENT OF IRAN FOR ITS STATE-SPONSORED PERSECUTION 
OF ITS BAHA'I MINORITY AND ITS CONTINUED VIOLATION OF THE INTERNATIONAL 
  COVENANTS ON HUMAN RIGHTS; AND CALLING ON THE GOVERNMENT OF IRAN TO 
 FULFILL THEIR PROMISES OF ASSISTANCE IN THIS CASE OF ROBERT LEVINSON, 
ONE OF THE LONGEST HELD UNITED STATES CIVILIANS IN OUR NATION'S HISTORY

                              ----------                              


                        THURSDAY, JUNE 19, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:45 a.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. We 
meet today pursuant to notice the markup of two bipartisan 
measures related to Iran. As your offices were previously 
notified, it is the intent of the Chair to consider the 
following items en bloc which members have before them: House 
Resolution 109, Condemning the Government of Iran for its 
state-sponsored persecution of the Baha'i minority; House 
Resolution 435, Calling on the Government of Iran to fulfill 
promises of assistance in the case of Robert Levinson; and Ros-
Lehtinen Amendment 49 in the nature of a substitute to House 
Resolution 435, which was provided to your office yesterday. 
Without objection, these items are considered as read and will 
be considered en bloc.
    [The information referred to follows:]<greek-l>H. Res. 
109 deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Ms. Ros-Lehtinen. After the ranking member and I speak on 
these measures, I would be glad to recognize any other member 
seeking recognition. Without objection, all members may have 5 
days to submit statements for the record on today's business.
    I would now like to recognize myself. I am pleased to call 
up these two bipartisan measures today, both of which I 
strongly support. The Baha'i community is the largest single 
non-Muslim minority community in Iran, yet since the 1979 
revolution, they have faced unrelenting and unforgiving 
persecution by the Islamic regime. Members of the Baha'i are 
constantly being detained, harassed, beaten, and thrown in 
jail, simply because they do not adhere to the brand of Shia 
Islam that the regime espouses.
    As the latest of the report of the U.S. Commission on 
International Religious Freedom States, as of February of this 
year there were at least 135 imprisoned members of the Baha'i 
community in Iran, double the number of those detained in 2011. 
In April, I adopted Rozita Vaseghi, a prisoner of conscience in 
Iran, whose case had been highlighted by Amnesty International 
and the U.S. Commission on International Religious Freedom. 
Rozita is a member of the Baha'i community who is serving a 10-
year sentence because of her faith. Rozita is suffering at the 
hands of this regime which targets people for what they believe 
and is one of hundreds of other cases that prove that under 
Rouhani, Iranians seeking to exercise their basic freedoms and 
assert their human dignity are no better off.
    I believe this resolution is important in highlighting the 
abysmal state of human rights in Iran, even as our 
administration engages its officials on nuclear negotiations. I 
urge my colleagues to support this measure. I also urge them to 
be a voice for other prisoners of conscience in Iran, many of 
whom have been languishing in Iranian prisoners for far too 
long and have suffered the brutality of this regime.
    The administration can no longer ignore the plight of those 
suffering in Iran and it must act now.
    It must also take immediate action to bring U.S. citizen 
Robert Levinson home. On March 9, 2007, Robert Levinson 
disappeared on the Iranian island of Kish in the Persian Gulf. 
On November 26, 2013, Robert marked his 2,455th day in 
captivity, making him one of the longest-held Americans in our 
history.
    Mr. Levinson and his family--I am pleased to see his son 
here with us today, welcome, sir--and his family calls South 
Florida their home and they are constituents of my good friend 
and our subcommittee's ranking member, Ted Deutch. Ted has been 
working tirelessly to bring Mr. Levinson home.
    Thank you, Dan Levinson, the son, the oldest son, for being 
with us today. And thank you so much for the support that you 
give to all of us and we to you. Our thoughts and prayers and 
with you and your family.
    Ted has been a relentless advocate for the release of 
Robert for many years and working hard to get answers on what 
has happened and to press the administration to do more to help 
facilitate his release, return him home to his family, Robert's 
wife, Christine, and their seven children. The Levinson family 
has been living this hellish nightmare over Robert's fate for 
over 7 years now. We demand his immediate unconditional return. 
There should be no kowtowing, no equivocation.
    We have heard the stories of abuse and torment that Pastor 
Saeed Abedini faces and we have seen the sham trial of Amir 
Hekmati, a U.S. Marine. We have tools in our disposal that can 
force their release, yet the administration is too worried 
about upsetting the Iranian regime as it continues to pursue 
this bad and weak nuclear agreement. This nuclear agreement 
does not exist in a vacuum. We must ratchet up the pressure and 
bring Robert home to his family. We must bring Pastor Saeed 
home to his family and we must bring Amir Hekmati home to his 
family.
    I am now very pleased to yield to the ranking member, Mr. 
Deutch, for his opening remarks.
    Mr. Deutch. Madam Chairman, thank you for holding today's 
markup on these two very important resolutions. I am proud to 
offer my strong support to both. I want to thank you for co-
introducing with me and for your continued tireless support of 
House Resolution 435, urging the Government of Iran to fulfill 
its promise to assist in the disappearance of my constituent, 
Robert Levinson.
    Robert Levinson disappeared from Kish Island, Iran, on 
March 9, 2007. He is now the longest held American hostage. The 
Levinson family has endured 2,659 days without their father. 
Bob and his wife Christina have been married for 40 years. They 
have four daughters and three sons. Bob's eldest son, Dan, is 
here with us today.
    Dan, your family has shown unimaginable strength in the 
face of this tremendous hardship and please know this Congress 
stands with you.
    Since his disappearance, Bob has missed 60 family 
birthdays, and the birth of three new grandchildren. He has 
missed the big things, weddings, anniversaries, graduations, 
promotions, but he has also missed hundreds of quiet Sunday 
nights at home with his family. Bob Levinson is now 66 years 
old. He spent 30 years as a dedicated FBI agent, retiring in 
1998. He chose to devote his career, his time away from his 
family, to the country that he loved so much. In 2010, the 
Levinson family received its first proof of life video in which 
Bob appeared alarmingly frail. The family again received a set 
of photos showing Bob in an orange jumpsuit in 2011. The 
Government of Iran has repeatedly indicated their willingness 
to assist in Bob's case. Now we are sitting across the table 
from Iran. We have the opportunity to raise Bob's case, to 
press Bob's case in every single meeting.
    I know our negotiating team is committed to doing so and I 
would urge them to tell the Iranians that if they want to send 
a signal of good faith as to why we should hold out any hope of 
trust for them, this is how they can do it, help us bring Bob 
Levinson and the two other detained Americans home.
    The Levinson family keeps a Facebook page and every single 
day they share memories of their father. This past Sunday, 
Father's Day, the family shared this post along with a picture 
of Bob in a t-shirt from his children that read ``One in a 
Million Dad.'' ``This is a difficult post to write,'' it said. 
``It has been 2,655 days and now the eighth Father's Day that 
we have been apart from the greatest man and father that we 
have ever known. It is tough for us today, but tougher on our 
dad. There is nothing in the world more important about 
Levinson than his family. We hope that today and every day that 
you hug your father with all of your might. Hug until he makes 
you let go. Hold on to that memory as all of us Levinson 
children would have given anything, anything to be able to 
embrace our dad again. We want to wish all the fathers out 
there, Happy Fathers Day. We pray with all of our being that 
our one in a million dad will be brought home to us just as 
soon as humanly possible.''
    Madam Chairman, passing this resolution today sends a 
message to the Iranians that this Congress has not and we will 
not forget about Bob. I ask my colleagues to support this 
bipartisan resolution to help bring Bob Levinson back to his 
family. Thank you and I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch. That was a 
very poignant, beautiful statement. Thank you for sharing that 
with us.
    And to show what a tireless advocate he is on behalf of 
human rights everywhere and how important these resolutions 
are, I am so pleased to yield whatever time you need to consume 
to the chairman of our committee, Mr. Royce of California.
    Mr. Royce. Madam Chair, thank you very much. I want to 
thank you and I want to thank Ted Deutch. I join Mr. Deutch in 
that sentiment. Bob Levinson, when you think about it, Mr. 
Deutch, our longest held American hostage anywhere on the 
planet. And I think all of us, the reason we are here today is 
because of our concern not only about his plight, but what this 
tells us about the regime.
    And for those of us who have known some of the Baha'i, 
those of the Baha'i faith, that peaceful faith, I know that you 
will mark up a resolution on that subject in a minute, Madam 
Chair. And to think about the fact that those who teach the 
Baha'i faith are taken out and summarily executed for that act 
today and that hundreds have been executed in Iran for the act 
of teaching the Baha'i faith, I think it is very, very 
important that we move these resolutions. And it is important 
that we reflect on the fact that the way you treat your own 
people might be a harbinger, might tell us something about the 
way you are likely to treat your neighbors and that is why I 
did want to say that the Iranian regime continues to involve 
itself in these serious human rights abuses, even as we sit 
here today on a very large scale. We will hear from one 
political prisoner here today in Iran.
    At least 750 people have been executed without due process 
in the past year. This is under President Rouhani. It is no 
wonder that Iran continues to stiff arm the U.N.'s Special 
Rapporteur on human rights in Iran. And I know that some 
thought that the election of President Rouhani might be a 
turning point. I would hope it would be, but I think we should 
remember that this is a man who called on the regimes of the 
Basij Militia to crush mercilessly and monumentally--those are 
his words--crush mercilessly and monumentally the student 
protesters. More than a dozen students were killed in the 
protests in 1999. More than 1,000 were arrested and several 
hundred were tortured. We should be speaking out against these 
abuses. For one, it is our moral responsibility to show 
Iranians that we are concerned about what happens to them, as 
human beings.
    Unfortunately, I fear that the Obama administration's 
engagement with Iran has signaled to them that we are focused 
on its nuclear program alone, no matter how many innocent men 
or women are being beaten or tortured or raped or killed for 
expressing their hope for change in Iran.
    Of course, Iran's nuclear program is a paramount national 
security concern, but a focus on the Iranian regime's militant 
character is just as critical to U.S. security interests. How 
the regime treats its people is a pretty good indicator of how 
it is going to treat its neighbors. Let us imagine that Iran 
and the P5+1 come to an agreement next month. Are we 
comfortable leaving this regime with much of the critical 
nuclear infrastructure in place? How could this regime which 
holds the noose in one hand be trusted to hold the keys to a 
nuclear bomb in the other? There is a reason that we are more 
comfortable when such dangerous technologies are in the hands 
of democratic nations, not hostile ones.
    And to be fair, the Bush administration, too, pushed human 
rights aside in its nuclear negotiations with North Korea. 
Members here on this committee who served with me for awhile 
will remember my criticism of the Bush administration at that 
time for that failure. But this failure to speak out against a 
regime's abuses, whether it is in Tehran or Pyongyang, fails to 
grasp the concept that promoting human rights, promoting 
democracy in Iran and improving our national security, in fact, 
go hand in hand. And that is why I again want to thank you, 
Madam Chair, for holding this hearing today and thank Mr. 
Deutch as well.
    Ms. Ros-Lehtinen. Thank you very much for coming to the 
markup, Mr. Chairman. We appreciate it.
    We have two more members who will be recognized for the 
markup before we segue to the hearing and I apologize that it 
is running a little bit late, but we are thrilled that Mr. 
Connolly and Mr. Chabot will make statements on in the markup.
    Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman and thank you for 
holding this markup and the subsequent hearing. I also want to 
commend you and Ted Deutch for your leadership on the case of 
Robert Levinson, as the chairman said just now, the longest 
held American in American history. And I thought Mr. Deutch's 
eloquent statement really kind of encapsulates the set of 
issues here. We cannot forget Mr. Levinson and his family and I 
hope that the words particularly of Mr. Deutch bring some 
comfort to his family and can lead to some action by the 
Iranian Government.
    I believe that the Baha'i resolution we have today has more 
at stake than just--not that that is limited--the Baha'i issue. 
It is about tolerance. It is about the American value of 
tolerance and acceptance and diversity and the right of people 
to practice their faith, their religion irrespective of the 
dominant culture. We don't always practice what we preach. 
There was an ugly incident the other day documented by 
columnist Dana Milbank at one of our think tanks that showed an 
element of intolerance we should be ashamed of. Because if we 
are going to lecture others and we should, we need to make sure 
we are following our own prescription.
    The distinguished chairman, whom I respect enormously, 
chided the Obama administration for perhaps a mixed message 
that maybe we were sending a signal that all we cared about in 
the relationship with Iran was the nuclear issue. And if his 
words were meant as a caution or a reminder, I join him. But if 
they were meant as a rebuke and a judgment that that, in fact, 
is what has happened, I must demur. The United States can 
handle more than one message at a time with every relationship 
it has in the world. The Iranians know full well we have a 
broad spectrum of issues with them, the nuclear one being 
obviously important, existentially for Israel and for that part 
of the world and ultimately for us. But by no means should the 
Iranians take any comfort in the fact that our interest is 
limited to that issue. That is not true. Today's resolution 
gives evidence of that fact. But we can't be afraid to sit down 
at the table after 35 years of isolation and be engaged. In 
fact, if we mean what we say today about this Baha'i 
resolution, non-engagement is precisely the best way to make 
sure this is feckless and has no effect.
    Engagement means we have some standing. We have some 
leverage on behalf of the Baha'is and others who are persecuted 
in a nontolerant, internal society in Iran. So I am delighted 
to join in support of both resolutions and I would hope that 
our hearing will help further illuminate the values and the 
potential pitfalls of that engagement. Thank you, Madam 
Chairman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Connolly. And I am 
now pleased to recognize Mr. Chabot, subcommittee chairman of 
Asia and the Pacific.
    Mr. Chabot. Thank you, Madam Chair, and I want to associate 
myself with your remarks and also those of Chairman Royce and 
the ranking member, Mr. Deutch. The Iranian regime continues to 
persecute those of the Baha'i faith, charging, imprisoning, 
abusing, and murdering individuals on trumped up charges 
including alleged propaganda against the state.
    Human Rights Watch says, ``These transparently political 
charges make it painfully clear that authorities have targeted 
the Baha'is not for any crime, but because of their religious 
beliefs.'' The Baha'i faith is truly a religion of peace. There 
is a Baha'i church on Montana Avenue in Cincinnati about \1/2\ 
mile from my home. And hopefully, adoption of this resolution 
will increase awareness of on-going major human rights abuses 
in Iran. And I thank you for pushing this, Madam Chair. I urge 
support for the resolution and I yield back.
    Ms. Ros-Lehtinen. Thank you very much. Hearing no further 
requests for recognition the question occurs on adopting the 
items under consideration en bloc. All those in favor say aye.
    [Chorus of ayes.]
    All those opposed, no. In the opinion of the Chair, the 
ayes have it. The en bloc amendment items are approved. Without 
objection, the items in the en bloc will be reported favorably 
to the full committee and House Resolution 435 will be reported 
in the form of a single amendment in the nature of a 
substitute. The staff is directed to make any technical and 
conforming changes. I want to thank all of our members and 
staff for the assistance and cooperation that went into today's 
markup. The subcommittee stands adjourned.
    [Whereupon, at 10:12 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
